      ADVISORY REPORT

     COSTS CLAIMED BY THE
       STATE OF MISSOURI,
         DEPARTMENT OF
     CONSERVATION, UNDER
   FEDERAL AID GRANTS FROM
   THE U.S. FISH AND WILDLIFE
    SERVICE FROM JULY 1, 1997
      THROUGH JUNE 30, 1999




JUNE 2003       Report No. 2003-E-0022
                                                                               X-GR-FWS-0038-2003


                United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                                       Washington, D.C. 20240

                                                                                     June 11, 2003

                                 ADVISORY REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the State of Missouri, Department of
           Conservation, Under Federal Aid Grants from the U.S. Fish and Wildlife Service
           from July 1, 1997 through June 30, 1999 (No. 2003-E-0022)

                                        Introduction
       This report presents the results of our performance of procedures to review another audit
agency’s work related to costs claimed by the State of Missouri, Department of Conservation
(Department) under Federal Aid grants from the U.S. Fish and Wildlife Service (FWS) for the
period July 1, 1997 through June 30, 1999.

Background and Scope

       The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the Federal
Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts), authorize FWS to
provide Federal assistance grants to the states to enhance their sport fish and wildlife programs.
The Acts provide for FWS to reimburse the states up to 75 percent of all eligible costs incurred
under the grants. Additionally, the Acts specify that state hunting and fishing license revenues
cannot be used for any purpose other than the administration of the state’s fish and game
agencies. In addition, FWS also provides grants to the states under the Clean Vessel Act and the
Endangered Species Act.

        In February 2000, another audit agency initiated an audit of FWS Federal Aid Program
grants awarded to the State of Missouri for fiscal years 1998 and 1999. The scope of the work to
be performed by the audit agency, as stated in a draft report in the working papers, was to
evaluate (1) the adequacy of the Department’s accounting system and related internal controls to
determine if the system can be relied upon to accurately accumulate and report the actual costs
charged to the grants; (2) the accuracy and eligibility of the direct and indirect costs claimed by
the Department under the Federal Aid grant agreements with FWS; (3) the adequacy and
reliability of the Department’s hunting and fishing license fees collection and disbursement
process; and (4) the adequacy of the Department’s purchasing system and related internal
controls. The audit was also to include an analysis of other issues considered to be sensitive
and/or significant to FWS. The audit work at the Department covered claims totaling
$46.4 million on FWS grants that were open during the grantee’s fiscal years ended June 30,
1998 and 1999 (see Appendix 1). The working papers contained an undated version of a draft
report prepared by the audit agency, but its agreement with the FWS expired before issuance of
its draft and final reports.

        From 1996 through September 2001, the audit agency conducted audits of Federal Aid
grants under a reimbursable agreement with FWS. The FWS did not renew or extend the
agreement, which expired on September 30, 2001. At the time of expiration, final audit reports
on several uncompleted audits had not been issued, and the audits were in various stages of the
audit and reporting processes. The audit agency indicated in a September 28, 2001 memorandum
for the file that it had not completed its supervisory and management reviews of the working
papers and draft report to ensure that (1) sufficient, competent and relevant evidence had been
obtained to afford a reasonable basis for the audit findings, conclusions, and recommendations,
(2) sound auditing techniques and auditor judgment were exercised throughout the audit process,
and (3) the audit work was performed in accordance with Generally Accepted Government
Auditing Standards.

        On September 20, 2001, FWS and the Office of Inspector General (OIG) entered into an
Intra-Departmental Agreement under which the FWS requested the OIG to (1) review the audit
work performed by the audit agency including its working papers, summaries and draft reports
for these audits and (2) issue reports on the findings that were supported by the working papers.
Accordingly, our review was limited to performing the procedures set forth in the Agreement
and the conclusions presented in our report are limited to the findings substantiated by the
working papers. We did not perform any additional audit work of the Department’s records, and
the limited work performed under these procedures does not constitute an audit by the OIG in
accordance with Generally Accepted Government Auditing Standards.

       Significant findings impacting Missouri’s administration of the Federal Aid programs are
presented in the body of the report and other management issues are presented in Appendix 2.

                               RESULTS OF REVIEW

       The results of our review of the working papers disclosed the following:

       •   The eligibility for reimbursement of costs totaling $1,523,132 (Federal share) was
           questioned representing reimbursements in excess of the Federal cost-sharing
           percentage identified in the grant agreement ($1,456,420), costs related to
           unallowable nuisance animal control ($41,345), and operation and maintenance costs
           on ineligible lands ($25,367).




                                                2
       •   Revenues from the sale of real property were incorrectly reported as program income.
           In this particular case, FWS’ share of the revenue from the sale of real property is
           greater than its share of program income. As a result, the offset of revenue against
           expenses was too low, resulting in excessive reimbursements to the Department
           totaling $18,831.

       •   The Department did not report program income totaling $104,694, consisting of
           rental income of $65,520 received from employees who lived in housing located on
           property that had been acquired with Federal Aid funds and $39,174 from the sale of
           timber from Federal Aid lands.

       •   The Department did not have an adequate system and controls to ensure that license
           revenues were used only for eligible purposes.

       •   The Department has been allowing private organizations to conduct dog field trials on
           conservation area lands throughout the State that were acquired with Federal Aid
           funds and/or Commission Fund monies (which included license revenues). This
           activity may have adversely impacted wildlife habitat.

       •   The Department’s indirect cost pool included ineligible costs for administrative
           salaries and data processing related to generating license revenues, resulting in
           excessive indirect cost reimbursements to the Department.

       •   The Department was unable to provide evidence that it had passed assent legislation
           as required by the Sport Fish and Wildlife Restoration Acts.

       •   Deficiencies were identified in the Department’s practices and procedures for labor
           reporting, accounting, purchasing, asset management, and drawdowns.

       •   The Department used cost-per-fish calculations for certain grant charges that were not
           based on actual costs.

A. QUESTIONED COSTS

       The working papers identified questioned costs totaling $1,523,132 (Federal share)
representing claims in excess of the Federal share percentage identified in the grant agreement
($1,456,420), costs related to nuisance animal control ($41,345), and operation and maintenance
costs on ineligible lands ($25,367).

        1. Cost-Sharing Percentage Exceeded. In accordance with Part 522.1.8.C of the
Federal Aid Manual, “An amendment must be submitted to the [FWS] Regional Director for
approval [for]… revising the rate of Federal participation shown on the Grant Agreement.” The
working papers questioned costs totaling $1,456,420 (Federal share) on two grants because the
Federal Aid reimbursement was based on a percentage that was greater than the percentage
identified in the grant agreements. In addition, the Department had not submitted the required


                                                3
  amendments requesting an increase in the Federal Aid percentage. Furthermore, there was no
  evidence in the working papers that FWS had formally agreed to an increase in the cost sharing
  percentages.

          The working papers stated that the Federal Aid participation rates identified in the grant
  agreements were 50 percent for Grant W-93-D-3 and 35 percent for Grant W-93-D-4, but that
  the Federal share claimed on the final Financial Status Reports (FSR) exceeded these rates. (The
  dollar amounts claimed, however, did not exceed the Federal share amounts shown in the grant
  agreements because the Department’s net outlays were significantly less than the grant amounts.)
  The Department did not submit the required amendment in either case. Instead, it noted on the
  final FSR that it had changed or adjusted the cost-sharing ratio. Specifically:

         •   An attachment to the final FSR for Grant W-93-D-3 included the following note:
             “9-28-98 e-mail to [two first names shown]: change ratio from 50/50 to 60% federal/
             40% state – no additional obligation of funds.”

         •   The final FSR for Grant W-93-D-4 included the following note: “In order to
             maximize available funds, we have adjusted the federal /state ratio [from 35 /65] to
             52/48 [the Federal rate claimed was actually about 51.463 percent] as allowed by the
             grant proposal.”

         The working papers computed questioned costs of $1,456,420, as follows:

                                                                   Grant Nos.
Description                                                  W-93-D-3     W-93-D-4            Total
A. Federal Aid Share Claimed                                 $3,865,659   $2,257,746         $6,123,405
    Net Outlays (Per Final FSR)                               $7,341,544      $4,387,087
     Federal Aid Participation (Per Grant Agreement)                50%             35%
    Federal Aid Share                                         $3,670,772      $1,535,480
    Less: FWS Share of Revenues from Sale of Property            539,267               0
B. Computed Federal Aid Share                                 $3,131,505      $1,535,480     $4,666,985
C. Questioned Reimbursement (A. less B.)                        $734,154       $722,266      $1,456,420


          In both cases, the reimbursement to the Department did not exceed the Federal share
  shown in the grant agreement. However, the grant agreement for Grant W-93-D-4 is unclear as
  to whether the Department is entitled to receive the full Federal share dollar amount identified in
  the agreement (not to exceed 75 percent of the net outlays) or whether the Department is limited
  to the cost sharing percentage shown in the agreement. (The working papers did not include a
  copy of the grant agreement for Grant W-93-D-3.) If the FWS determines that the Department’s
  reimbursement is limited to the percentages in the agreement, then it needs to further determine
  whether it is appropriate to amend the grants to increase the Federal cost sharing percentages.




                                                   4
        2. Nuisance Animal Control. Part 522.8.2B(2) of the Federal Aid Manual states
“Activities directed to the welfare of individual animals such as caring for injured animals or
removal of nuisance animals” is not eligible for Federal Aid funding. The working papers
identified costs totaling $95,924 charged to Federal Aid grants that were recorded in the
Department’s Integrated Management System under code WDT. The Department defines this
code as follows: “Wildlife Damage Technical Assistance - Contacts with landowners on wildlife
damage problems. Urban wildlife damage control contacts. Phone contacts and visits concerning
animal control.” The questioned costs by grant are summarized below:

                                               W-93-D-3    W-93-D-4      Total
              Nuisance Animal Costs            $51,810     $44,114      $95,924
              Federal Aid Participation           50%         35%              -
              Federal Aid Share                $25,905     $15,440      $41,345

        The Federal share of the questioned costs was based on the percentages shown in the
grant agreements. If the FWS determines that the Department is entitled to the higher cost
sharing percentages shown on the FSRs, the questioned Federal share would be higher for both
grants since the actual reimbursements were based on the higher percentages.

        3. Operations and Maintenance of Ineligible Lands. In accordance with the Federal
Aid Manual, Chapter 522, Paragraph 7.7B, "Facilities purchased or constructed under the Land
and Water Conservation Fund (LWCF) Act may not be operated or maintained with Federal Aid
funds." The working papers identified questioned costs of $55,273 (Federal share $25,367)
related to maintenance on lands acquired or developed with LWCF funds as follows:

        • The Department’s charges for maintenance on Grants W-93-D-3 and W-93-D-4
included costs related to 2,313 acres of land acquired or developed with LWCF funds. The lands
were located at the Pelican Natural Area (2,260 acres) and the Bush Conservation Area (53
acres, including 43 acres at Goose Lake and 10 acres at the Kraut Run Watershed). The related
questioned costs ($52,528) identified in the working papers were computed using the
Department’s “forest management rates” of $14.19 per acre for Grant W-93-D-3 and $8.52 per
acre for Grant W-93-D-4, as follows:

                                          Questioned   Federal Aid     Federal Share of
        Grant No.    Acres      Rate         Costs     Participation   Questioned Costs
        W-93-D-3     2,313     $14.19      $32, 821        50%              $16,411
        W-93-D-4     2,313       8.52        19,707        35%                6,897
                                           $52,528                          $23,308

        The Federal share of the questioned costs was based on the percentages shown in the
grant agreements. If the FWS determines that the Department is entitled to the higher cost
sharing percentages shown on the FSRs, the questioned Federal share would be higher for both
grants.




                                                5
        • The Department incorrectly charged $2,745 to Grant F-49-D-1 for maintenance work
at the Blackwater Bridge Access Site, which was originally developed using LWCF monies.
The Federal Aid participation on this grant is 75 percent; therefore, the Federal share of the
questioned costs is $2,059.

Recommendation

          We recommend that the FWS resolved the questioned costs of $1,523,132 (Federal
share).

U.S. Fish and Wildlife Service Response

          The FWS responses regarding the questioned costs were as follows:

         1. Cost Sharing Percentage Exceeded. The FWS stated that it was not their intent to
hold the Department to the cost sharing percentages stipulated in the grant agreements. Instead,
their intent was to adjust the Federal/state ratio of the grant to allow the Department to claim the
full Federal obligated amount, up to the maximum 75 percent allowed. The FWS acknowledged
that, “Although we were deficient in not formally amending cost-sharing percentage changes
into the grant amendments in accordance with the Federal Aid Manual, we were informally, via
e-mails and oral discussion, aware of and in concurrence with MDC’s [Department’s] practice
[of adjusting the cost sharing percentages.]” The FWS further stated that since this methodology
did not result in the Department receiving funds exceeding the amounts in the grant agreements,
it is recommending that the questioned costs of $1,456,420 not be sustained. The FWS also
stated that once it became aware of this issue during the audit, it “proactively took steps to
ensure that our intent was clearly documented in writing in current grant documents.”

        2. Nuisance Animal Control. The FWS provided copies of revised FSRs from the
Department for Grants W-93-D-3 and W-93-D-4 which showed that credits had been made for
the questioned costs. The FWS also provided a copy of an interim FSR dated March 18, 2003 for
Grant W-93-D-8 showing that the Department credited a total of $77,752 for Grants W-93-D-5
($29,204), W-93-D-6 ($19,754), and W-93-D-7 ($28,794) for similar ineligible nuisance animal
control charges to these grant segments that were in effect subsequent to the period covered by
our review. Further, the FWS provided additional documentation showing that code “WDT,”
which had been used to accumulate nuisance animal control costs, was no longer included in the
billable codes for the current grant segment.

        3. Operation and Maintenance of Ineligible Lands. The FWS provided copies of
revised FSRs for Grants W-93-D-3, W-93-D-4, and F-49-D-1 which showed that credits had
been made for the questioned costs. The FWS also provided a copy of an interim FSR dated
March 18, 2003 for Grant W-93-D-8 showing that the Department credited a total of $71,726 for
Grants W-93-D-5 ($15,983), W-93-D-6 ($19,036), and W-93-D-7 ($36,707) for similar
ineligible operation and maintenance charges to these grant segments that were in effect
subsequent to the period covered by our review.



                                                 6
Office of Inspector General Comments

        We believe that the FWS resolution of the finding regarding cost sharing percentages is
reasonable because the Federal Aid share on these grants is still less than the 75 percent limit
authorized in the Acts and additional documentation provided by the FWS and the Department
indicated that both parties were aware that the percentages would be subject to revision upon
completion of the grants. Accordingly, we consider the recommendation resolved and
implemented. It should be noted, however, that the resolution of the cost-sharing-percentage
issue will result in the Department not having to reimburse the FWS for the potential excess
reimbursements related to the other findings for Grants W-93-D-3 and W-93-D-4 (Finding A.2 -
Nuisance Animal Control, Finding A.3 - Operation and Maintenance of Ineligible Lands,
Finding C - Program Income, and Finding F - Indirect Costs) for Grants W-93-D-3 and W-93-D-
4. Specifically, even though the Department has made credits on its revised FSRs for these
grants, the effect of these adjustments is simply a net decrease in eligible grant costs and an
increase in the Federal cost sharing percentages, with no change in the reimbursable Federal Aid
dollar amounts for those grants.

B. REVENUES FROM THE SALE OF REAL PROPERTY

       Based on our review of the working papers, we determined that the Department
incorrectly reported revenues from the sale of real property as program income on Grant W-93-
D-4, resulting in excess Federal Aid reimbursements of $18,831. The Department reported
program income totaling $3,364,105 on its final FSR, of which only $3,282,230 ($1,664,487
from crop sales and $1,617,743 from timber sales) was actually program income. The remaining
$81,875 was revenue from the sale of real property ($75,760 from the sale of an easement and
$6,115 from a land trade), and therefore should not have been reported as program income.

        The Code of Federal Regulations (43 CFR 12.71(c)(2)) states that when a grantee sells
real property that had been acquired with grant funds, it shall compensate the awarding agency.
The regulations further state, “The amount due to the awarding agency will be calculated by
applying the awarding agency’s percentage of participation in the cost of the original purchase to
the proceeds of the sale after deduction of any actual and reasonable selling and fixing-up
expenses.” The excess Federal Aid reimbursement occurred because the reporting of these
revenues as program income resulted in FWS receiving a credit for 52 percent (the Federal Aid
cost sharing percentage claimed by the Department) of these revenues whereas FWS should have
received a credit of 75 percent (the Federal Aid share in the initial acquisition). The $18,831
excess reimbursement was computed as follows:

                 Credit Due FWS (75% of $81,875)                        $61,406
                 Credit Given to FWS on FSR (52% of $81,875)             42,575
                 Excess Reimbursement                                   $18,831




                                                7
Recommendation

       We recommend that the FWS resolve the issue regarding the $18,831 excess
reimbursement resulting from the misclassification of revenues from the sale of real property.

U.S. Fish and Wildlife Service Response

        The FWS provided a copy of a revised FSR dated March 2, 2000 for Grant W-93-D-4
that showed that the Department had properly credited back revenue of $81,875 at 75 percent.

Office of Inspector General Comments

      The FWS response was sufficient to consider the recommendation resolved and
implemented.

C. PROGRAM INCOME

        The Code of Federal Regulations (43 CFR 12.65(b)) defines program income as “gross
income received by the grantee or subgrantee directly generated by a grant supported activity, or
earned only as a result of the grant agreement during the grant period.” Part 12.65(a) specifically
identifies income from the rental of real property as program income. In addition, Part
12.65(g)(1) provides that:

            “Ordinarily program income shall be deducted from total allowable costs
           to determine the net allowable costs. Program income shall be used for
           current costs unless the Federal agency authorizes otherwise. Program
           income which the grantee did not anticipate at the time of the award shall
           be used to reduce the Federal agency and grantee contributions rather than
           to increase the funds committed to the project.”

      The working papers identified program income totaling $104,694 that was not reported to
the FWS, as follows:

        1. Rental Income. The working papers indicated that the Department did not report
rental income totaling $65,520 that it received from employees who lived in housing located on
Department-owned property that was managed under Grant W-93-D. The income was applicable
to Grants W-93-D-3 ($32,760) and W-93-D-4 ($32,760), which funded wildlife program
activities on all Department-owned lands.

        2. Timber Sales. The Department did not report income totaling $39,174 from timber
sales at the Clearwater Conservation Area ($28,500) in fiscal year 1998 and the Rocky Creek
Conservation Area ($10,674) in fiscal year 1999. The revenues were not reported because the
Department had incorrectly recorded them under revenue code 315-220, Timber Sales on State
Acquired Land. These lands had been acquired with Federal Aid funds and therefore, the




                                                 8
revenues should have been recorded under revenue code 315-221, Timber Sales of Federal Aid
Land.

        The working papers also indicated that the Department did not have written policies and
procedures related to the identification of timber sales revenues to the appropriate revenues code.
Further, when a timber sale came from property that was purchased with both Federal Aid and
State funds, there was no set method for identifying the revenue to either Federal Aid or to the
State.

Recommendation

       We recommend that the FWS resolve the issue regarding unreported program income of
$104,694 and ensure that the Department develops policies and procedures for recording the sale
of timber from State and Federal Aid lands.

U.S. Fish and Wildlife Service Response

       The FWS provided documentation showing that the Department had submitted revised
FSRs dated March 18, 2003 for Grants W-93-D-3 and W-93-D-4 which included adjustments for
the unreported program income. The FWS also provide a copy of an interim FSR dated
March 18, 2003 for Grant W-93-D-8 which included an adjustment of $25,470 for rental income
receive under Grant W-93-D-5. That grant was in effect subsequent to the period covered by our
review. The FWS response further stated that FWS has reviewed the Department’s working
procedures for recording income from timber sales and found the procedures to be adequate.

Office of Inspector General Comments

      The FWS response was sufficient to consider the recommendation resolved and
implemented.

D. HUNTING AND FISHING LICENSE REVENUES

         The Code of Federal Regulations (50 CFR 80.4) states, “Revenues from license fees paid
by hunters and fishermen shall not be diverted to purposes other than administration of the State
fish and wildlife agency.” According to Part 80.4(b) of the regulation, the administration of a
state fish and wildlife agency “include[s] only those functions required to manage the fish and
wildlife-oriented resources of the State…” The working papers concluded that the Department
did not have an adequate system and controls to ensure that license revenues were used only for
eligible purposes.

        The Department recorded all revenues in a single fund (Commission Fund.), which
resulted in revenues from restricted funding sources (primarily license fees) being commingled
with revenues from unrestricted sources (primarily sales taxes). Once recorded to the
Commission Fund, the original funding source can no longer be identified and the funding
source for individual expenses cannot be determined. The working papers identified several


                                                 9
projects/activities that are funded by the Commission Fund that would not be eligible uses of
license fee revenues, including the following:

       •       Fish stocking in private ponds
       •       Dog trials
       •       Some Forestry activities
       •       Protection Division support of Forestry activities

        Because the funding sources for expenditures for these activities were not identified in
the accounting records, it could not be determined whether license revenues had been used for
ineligible activities. However, the working papers concluded that since the Fund contained a
significant amount of unrestricted revenues from sales taxes (according to the working papers,
revenues from unrestricted sources comprised about 60 percent of the Fund), no diversion had
taken place.

Recommendation

       We recommend that the FWS ensure that the Department establishes adequate procedures
and controls to account for the receipt and expenditure of license revenues.

U.S Fish and Wildlife Service Response

        The FWS stated, “We generally concur that establishment of separate funds for Federal
Aid, license revenues, and conservation sales tax dollars would result in better accounting to
distinctly separate the uses of these revenue sources ” and “would also help with the unique
accounting requirements associated with accounting for personal…and real property…
purchases in identifying source of funds used to purchase such assets” (which is a separate but
related issue discussed in Finding K). However, the response also included documentation from
the Department indicating that unrestricted revenues from the conservation sales tax exceeded
ineligible expenditures by $69 million and that the Department believes that establishing
procedures to determine the exact proportions of conservation sales tax revenues used for
ineligible activities would increase administrative costs and “would result in documentation of
the obvious, that an amount proportional to permit revenues was not diverted.” FWS further
stated that it was “open to further discussion and other possible alternatives to resolve the issue,”
and that, “Due to the property accounting implications, we consider this an open issue at this
time and intend to work with MDC on potential solutions.”

Office of Inspector General Comments

       Based on the FWS response, we consider the recommendation unresolved.




                                                 10
E. DOG FIELD TRIALS

        The working papers indicated that the Department has allowed private organizations to
conduct dog field trials on conservation area lands that were acquired with Federal Aid funds or
Commission Fund monies. The majority of trials were held at the Whetstone, Duck Creek, Pony
Express, and Reed Conservation Areas (where portions of the lands were purchased with Federal
Aid funds) and the Busch Conservation Area (where the lands were donated or may have been
acquired with Commission Fund revenues). The working papers indicated that these dog trial
activities might be in violation of the Code of Federal Regulations, as follows:

        • The Code (50 CFR 80.14(b)(2)), states, “Real property acquired or constructed with
Federal Aid funds must continue to serve the purpose for which acquired or constructed. When
such property is used for purposes which interfere with the accomplishment of approved
purposes, the violating activities must cease and any adverse effects resulting must be
remedied.” The working papers indicated that none of the grant agreements cited dog trials as
one of the purposes for acquiring the lands (although the preliminary project statement for one of
the grants stated that the use of the lands could include dog trials). Furthermore, the working
papers identified instances where the dog trials may have interfered with the purposes for which
the lands were acquired, as follows:

   •   Whetstone CA. The project statement indicated that the area was to be developed
       primarily for upland wildlife and public hunting. A Department representative stated that
       the dog trials may have added to quail stress, and an FWS representative expressed
       concern that the horses used in the trials may cause damage at stream crossing areas.

   •   Duck Creek CA. According to grant documents, the lands were acquired primarily for
       the management of waterfowl, and were to serve as a refuge for waterfowl except in the
       hunting season. Part of the land was also to be used for “goose shooting.” During 1998
       and 1999, the area was open to field trials approximately 300 days, and Department
       representatives have documented kills of wildlife (raccoon, fox, mink, deer, and turkey)
       by dogs in this area. According to the working papers, the Wildlife Manager said that he
       spent a significant amount of his time dealing with the dog trials.

   •   Pony Express CA. The lands were acquired for construction of a fishing lake and public
       hunting. The dog trial courses cover about two thirds of the area. The working papers
       indicated that the trials are held during the turkey season and that the trials held in the fall
       may interfere with the archery-hunting season. The working papers also indicated that
       Department workers provide support for the dog trials by mowing the course, opening the
       barn and having it ready for the horses, and picking up trash.

   •   Reed CA. The lands were acquired for construction of fishing lakes and resting stations
       for migratory waterfowl. Further, although the preliminary project statement stated that
       the entire area would be a refuge, it also stated that all manner of public use, except
       hunting, would be encouraged and permitted on the area, including dog trials. The
       working papers did not identify any adverse effect on the lands resulting from the trials


                                                 11
       except that a Department representative noted that restricting the trials would allow the
       turkey and quail populations to grow more quickly and would benefit the rabbit
       populations.

        • The Code [50 CFR 80.4(c)] states, “A diversion of license fee revenues occurs when
any portion of license revenues is used for any purpose other than the administration of the State
fish and wildlife agency.” According to Part 80.4(b), the administration of a state fish and
wildlife agency “include[s] only those functions required to manage the fish and wildlife-
oriented resources of the State…” The Department allowed dog trials to be held at the Busch
Conservation Area, which was acquired, in part, with Commission Fund revenues (and
potentially license fee revenues). The working papers concluded that these dog trial activities do
not appear to meet the criteria regarding the use of license revenues. In addition, the working
papers indicated that archery hunters have complained about the trials during the archery season
and that some lakes in the area are closed to fishing during the trials. Also, the Department’s
representative said that he believed that there is a problem with bird nesting and a high mortality
due to the breakup of covies because of the dog trials.

       • The Federal Aid Manual, Part 521, Paragraph 1.7(c) states that providing services or
property of material value to individuals or groups for commercial purposes or to benefit such
individuals or groups are ineligible activities. Participants in the dog trials were generally
required to pay an entry fee to the organization conducting the dog trial activities, and prizes
were awarded at some locations.

        The FWS needs to determine whether the use of Department properties for dog trial
activities is an appropriate use of those properties in accordance with the Code of Federal
Regulations.

Recommendation

       We recommend that the FWS resolve the issue related to dog trials on Department lands.

U.S. Fish and Wildlife Service Response

        The FWS stated that when this issue was brought to the Department’s attention during
the audit agency’s audit, the Department undertook a review of its field trial policy and
procedures and issued a new policy and procedure effective January 2002. Although the FWS
commended the Department for its efforts, it also stated that “There are some compliance issues,
concerns, and activities associated with field trials that will require active monitorship, response,
and oversight by both the MDC and the Service [FWS] to bring about satisfactory resolution. We
intend to work with the MDC in developing a corrective action plan that addresses the specific
issues and concerns expressed by the auditors.”

Office of Inspector General Comments

       Based on the FWS response, we considerer the recommendation unresolved.



                                                 12
F. INDIRECT COSTS

        According to the Code of Federal Regulations (50 CFR 80.14(c)), “Federal Aid funds
shall not be used for the purpose of producing income." In addition, Part 521 of the Federal Aid
Manual (Paragraph 1.7 for Wildlife Restoration grants and Paragraph 2.7 for Sport Fish
Restoration grants) specifically prohibits the use of Federal Aid funds for “all processes and
procedures directly related to the sale of licenses, permits, etc., which are imposed by state law
or regulation.” The working papers showed that the Department’s indirect cost pools for fiscal
years 1998 and 1999 included costs of administrative salaries and data processing related to
generating and processing license revenues. As a result, these costs were allocated to all
divisions of the Department and subsequently included in requests for reimbursement of Federal
Aid funds. The working papers concluded that inclusion of these costs in the pool resulted in
significant costs being allocated to Federal Aid grants for ineligible activities. Accordingly, we
believe that an adjustment for these charges should be made.

Recommendation

        We recommend that the FWS resolve the issue regarding the indirect charges for
ineligible activities for fiscal years 1998 and 1999 and ensure that the Department excludes costs
related to generating license revenues from the indirect cost pool in future indirect cost
proposals.

U.S. Fish and Wildlife Service Response

        The FWS provided copies of the Department’s revised final FSRs for Grants W-93-D-3
and W-93-D-4 and interim FSRs for the current grant segments for 13 other grants which
reflected credits for excessive indirect cost charges totaling $718,841 for the audit period, as
follows:
                                    Grant Number          Amount
                                  W-93-D-3              $243,259
                                  W-93-D-4               181,040
                                  F-1-R-47                14,781
                                  F-1-R-48                13,888
                                  F-49-D-1                10,958
                                  F-41-D-12               40,184
                                  F-50-D-1                77,860
                                  F-44-T-11                6,235
                                  W-13-R-52               62,732
                                  W-13-R-53               46,492
                                  F-42-E-12                5,618
                                  F-42-E-13                8,375
                                  E-1-30                   2,385
                                  E-1-31                   1,175
                                  E-1-32                   3,859
                                  Total                 $718,841


       FWS further stated that the Department has adjusted its rates for fiscal years 2000, 2001,
and 2002.


                                                13
Office of Inspector General Comments

       The information provided by the FWS shows that the Department has made adjustments
for most, but not all, of the grants that were covered by the audit agency’s review. The FWS
should determine whether the Department needs to make adjustments for the remaining grants.
Accordingly, we consider the recommendation unresolved pending FWS’ determination.

G. ASSENT LEGISLATION

        The Department was unable to provide evidence that it had passed the assent legislation
which is required by the Sport Fish and Wildlife Restoration Acts and the Code of Federal
Regulations (50 CFR 80.3, Assent Legislation). According to 50 CFR 80.3, a state is not eligible
to participate in the benefits of the Restoration Acts until it has passed legislation which assents
to the provisions of those Acts.

       In March 2000, the audit agency notified the FWS that the State of Missouri did not have
the required assent legislation. In its response, FWS Region 3 cited the following excerpt from a
1974 FWS Annual Report as evidence that Missouri had the required assent legislation: "Kansas
was the first State to pass assent legislation on March 4, 1938, followed by Rhode Island…and
Missouri by the end of 1938." However, the FWS also stated "If Missouri is unable to find a
copy of those provisions, they indeed do need to provide a replacement of that early document
approved by the present day Conservation Commission."

       As of the end of the audit agency’s fieldwork in August 2000, no legislation had been
provided to the auditors. Therefore, the Department is not eligible to receive Federal Aid funds
under the Wildlife and Sport Fish Restoration Acts unless it can provide the required legislation.

Recommendation

        We recommend that the FWS resolve the issue regarding the lack of the required assent
legislation.

U.S. Fish and Wildlife Service Response

        The FWS stated, “The Missouri Conservation Commission, which is given full authority
over fish and wildlife resources of the state, unanimously affirmed assent language on March 20,
2003.” The March 2003 document states in part that “The Commission unanimously affirmed its
commitment to the purpose and intent of the Wildlife Restoration Act… and the Sport Fish
Restoration Act…, and assent to the provisions of the Act, including that money accruing to the
state from fees charged for hunting and angling licenses shall not be used for any purpose other
than game and fish activities and related activities under the administration of the Conservation
Commission.” The FWS stated that it considers the finding resolved and the action implemented.




                                                14
Office of Inspector General Comments

        The Federal Aid in Wildlife Restoration Act states, “No money apportioned to any State
shall be expended therein until its legislature, or other State agency authorized by the State
constitution to make laws governing the conservation of wildlife, shall have assented to the
provision of this Act and shall have passed laws for the conservation of wildlife which shall
include a prohibition against the diversion of license fees paid by hunters for any other purpose
than the administration of said State fish and game department.” [Emphasis added.] Similar
language is contained in the Sport Fish Restoration Act.

       Each Act requires the State to pass laws assenting to the provisions of the Act. We
suggest that the FWS request advice from the Solicitors Office as to whether the document
prepared by the Conservation Commission satisfies the requirements of the Acts. Accordingly,
we consider the recommendation unresolved.

H. LABOR REPORTING PROCEDURES

        The working papers concluded that the Department did not have adequate written
policies and procedures for corrections of invalid labor codes on timesheets, transfers of labor
costs among projects, time keeping practices, and charges for training and meetings. The
following deficiencies were noted:

       1. Invalid Codes. The Department’s Fiscal Services unit made corrections to individual
employee timesheets when an invalid labor code had been used. However, no documentation
was prepared showing the reason for the changes and neither the employees nor their supervisors
were contacted to ensure that the changes were proper.

       2. Shifting Labor Charges. The Fiscal Services unit shifted labor charges between
Federal Aid grants without documenting the reason for the transfers, noting the changes on the
timesheets, or notifying the employee or supervisor. The auditors determined, however, that the
adjustments were proper for the transactions reviewed.

        3. Timesheets. The only instructions for employees on how to complete their
timesheets are a one-page list of instructions on the back of the manual timesheet. These
instructions did not provide adequate guidance on how to make corrections to timesheets so that
a proper audit trail is maintained on what correction was made, why it was made, and who made
it. The instructions also did not require that time charges be recorded on a daily basis or that
timesheets be prepared in ink.

        4. Training and Meeting Costs. The working papers identified inconsistencies in
recording costs related to meetings and training. Some employees inappropriately charged
general training and meeting costs to specific Federal Aid projects and others inappropriately
charged project-specific training and meeting costs to IMS codes used for indirect costs. This
occurred because the Department did not have written policies and procedures on charging
training and meeting costs as direct or indirect costs.



                                                15
Recommendation

         We recommend that the FWS ensure that the Department corrects the deficiencies related
to its labor reporting procedures.

U.S. Fish and Wildlife Service Response

        The FWS provided documentation showing that the Department has developed
procedures and provided training related to corrections of invalid labor codes on timesheets,
transfers of labor costs among projects, time keeping practices, and charges for training and
meetings. The FWS stated that it considers these actions sufficient to correct the reported
deficiencies and that “no further action is required to close this finding.”

Office of Inspector General Comments

      The FWS response was sufficient to consider the recommendation resolved and
implemented.

I. ACCOUNTING PRACTICES

       The Department did not have written policies and procedures or adequate documentation
to support non-labor adjusting journal entries. The documentation did not provide an
explanation of why the adjustment was made or who authorized or requested the adjustment.

Recommendation

       We recommend that the FWS ensure that the Department corrects the deficiencies related
to non-labor adjusting entries.

U.S. Fish and Wildlife Service Response

        FWS provided examples of recent journal vouchers furnished by the Department which
appear to contain adequate explanations of changes made as well as backup documentation.
However, FWS stated “We believe it would be beneficial for MDC to establish a formal
accounting policy and procedure on journal vouchers. At a minimum, MDC should prepare
written desk procedures for accounting staff to follow.”

Office of Inspector General Comments

       Based on the FWS response, we consider the recommendation unresolved.




                                                16
J. PURCHASING SYSTEM

       The working papers identified deficiencies in the Department’s purchasing system
controls relating to written policies and procedures and records retention.

        1. Written Policies and Procedures. The Department did not have current formal
written procedures for its procurement operations at the time of the audit. The Department’s
Expenditures Manual contained numerous sections that were crossed out with handwritten
changes added to the document. Also, the Department initiated the use of charge cards before it
had approved and finalized its written policy, and it did not have written procedures to ensure
that debarred contractors are excluded from obtaining contracts with the Department. The
working papers also indicated, however, that the Department had prepared a draft “Business
Policy Manual” which included revised procurement and credit card policies and procedures, but
the document had not been formally issued as of August 2000.

        2. Records Retention. The Code of Federal Regulations (50 CFR 80.19(a)) states
"Financial, supporting documents, and all other records pertinent to a project shall be retained
for a period of three years after submission of the final expenditure report on the project." The
Department’s procedures did not comply with this requirement because the Department
discarded records that were three years old, without regard to the project’s ending date.

Recommendation

        We recommend that the FWS ensure the Department corrects the deficiencies related to
its purchasing system controls.


U.S. Fish and Wildlife Service Response

        The FWS provided documentation showing that the Department had finalized its
Business Policy Manual, and stated that this action was sufficient to considerer the
recommendation with respect to policies and procedures to be implemented. The FWS also
stated that the Department is currently reviewing its records retention schedule and therefore the
recommendation with respect to records retention is not implemented.

Office of Inspector General Comments

        The FWS adequately addressed the issue regarding written procurement policies and
procedures. However, since the Department has not yet revised its record retention requirements,
the recommendation is considered unresolved.




                                                 17
K. ASSET MANAGEMENT SYSTEM

       The working papers identified the following deficiencies in the Department’s asset
management system for real and personal property acquired with Federal Aid funds and license
revenues.

       1. Real Property

            a. Disposition Instructions. The Code of Federal Regulations [43 CFR 12.71(c)]
requires the grantee to request disposition instructions from the awarding agency when real
property is sold. The working papers noted that the Department’s guidelines on the sale of real
property (“Non-Expendable Inventory Manual” and “Policies and Guidelines for Area and
Resource Management Disposal of Real Property or Sale of Forest Products”) do not address the
notification requirement or indicate that the awarding agency is to be compensated based on the
amount of its participation in the purchase.

            b. Funding Source. The Department’s real property records did not identify
property that was purchased with license fees. The Department commingled restricted funding
sources (license fees) with unrestricted funding sources (sales tax revenue) into a single fund, the
Commission Fund. Once recorded to the Commission Fund, the original funding source can no
longer be identified. As such, the funding source for the purchase of real property acquired with
the Commission Fund cannot be identified. This could result in the diversion of license fees.

            c. Area Plans. The Department’s Area Planning Policies and Procedures require
that area plans contain the following minimum information: “Area history and historical,
cultural, and heritage resources and land use history. Area history will include the acquisition
history, and any legal restrictions, easements or agreements that are in effect.” The working
papers indicated that the Department’s area plans did not consistently include sufficient
information related to acquisition history, specific tracts acquired with Federal Aid funds or
license revenues, or any legal restrictions on the use of the land. Therefore, the plans did not
provide sufficient information for monitoring current and planned uses to ensure that the lands
are not used for ineligible purposes.

       2. Personal Property

           a. Funding Source. The Code of Federal Regulations (43 CFR 12.72(b)) requires
that “A State will use, manage, and dispose of equipment acquired under a grant by the State in
accordance with State laws and procedures.” The Department’s Non-Expendable Inventory
Manual, Section V.D.6, requires that when adding equipment items to the inventory, funding
code 1.1 (Commission Fund) should be used for all equipment that was acquired as part of a land
acquisition regardless of the funding source for the acquisition. Thus, equipment acquired along
with a Federal Aid-funded land acquisition would not appear in the inventory records as Federal
Aid equipment.




                                                 18
            b. Equipment Loan Logs. The Department’s Non-Expendable Inventory Manual
(Section V, Procedures, Paragraph F, Transfers of Inventory Items, Sub-paragraph 3, Loan Log)
requires offices to maintain a log of items temporarily loaned to other units. The Manual also
requires that equipment on loan for 6 months be transferred to the unit where the equipment is
located. The working papers indicated that Department field personnel did not maintain the
required loan logs, which could hinder the identification of equipment that is missing or that
should be transferred to another unit.

Recommendation

       We recommend that the FWS ensure that the Department corrects the deficiencies in its
asset management system.

U.S. Fish and Wildlife Service Response

       The FWS response regarding the deficiencies in its asset management system was as
follows:

       Real Property. The FWS stated that the Department was in the process of revising the
applicable manuals to address the issue regarding disposition instructions. It also stated that the
Department has completed revising its policy and procedure to address the issue regarding area
plans.

        Regarding the issue of identification of the source of funding used to acquire real
property, the FWS stated that the Department was proposing that property acquired before 1978
would be coded as “Commission Fund” and property acquired during or after 1978 would be
coded as “Conservation Sales Tax.” However, the FWS further stated, “We are not clear if all
real properties, or only part of the properties, proposed to be coded as ‘Commission Fund’ are
considered ‘license fee restricted use properties.’” The FWS concluded that “We believe this
issue requires further detailed study and analysis of facts and consider the finding unsettled.”

        Personal Property. The FWS stated that the Department indicated that it had changed its
manual to delete the incorrect statement regarding the funding source of equipment acquired as
part of a land acquisition, but that the Department had not yet provided a copy of the manual
section containing the changes. The FWS also stated that the Department has eliminated the
requirement for loan logs, and therefore no further action is required to address this issue.

Office of Inspector General Comments

        Based on the FWS response, we consider the recommendation unresolved. The FWS
needs to ensure that the Department makes the necessary changes to its manuals to address the
issue regarding the disposition of real property, resolve the issue regarding the source of funding
for real property acquired with the Commission Fund, and ensure that the Department has made
the necessary changes to its manual regarding equipment purchased as part of a land acquisition.




                                                 19
L. BILLINGS AND DRAWDOWNS

        The working papers concluded that the Department’s procedures and related internal
controls for billings and drawdowns were adequate but identified a deficiency related to credits
for revenues received for Grant W-93-D-5. Specifically, the Department did not credit monthly
program outlays for program income and revenues from the sale of real property when
computing reimbursable expenses. While the Department recorded the receipts for program
income and the sale of real property each month, it did not use these amounts to offset grant
outlays on the monthly draw down requests. Instead, the Department delayed the crediting of
these revenues until the end of the fiscal year. As a result, the Department received advance
funding. The Cash Management Improvement Act and the regulations (31 CFR 205.7(4))
require that a state shall request funds not more that three business days prior to the day it makes
a disbursement.

Recommendation

        We recommend that the FWS ensure that the Department revises its procedures to report
program income and revenues from the sale of real property as an offset against reported outlays
on its monthly drawdowns.

U.S. Fish and Wildlife Service Response

        The FWS stated that the Department has been crediting agriculture crop income and
timber sales to Federal Aid grants on a monthly basis since the issue was raised by the other
audit agency, and provided documentation furnished by the Department showing that credits
were being made. The FWS stated that it considered the recommendation implemented.

Office of Inspector General Comments

      The FWS response was sufficient to consider the recommendation resolved and
implemented.

M. COST-PER-FISH CALCULATION

        The working papers indicated that costs charged to Grants F-41-D-12 and F-50-D-1 for
stocking fish in public waters were not based on actual costs for the grant period. The
Department annually computes an average cost per fish by species that is based on information
developed by its hatcheries. The basic purpose of these calculations is to permit the allocation of
costs for stocking private ponds and public waters. However, the working papers indicated that
the cost-per-fish calculations for warm water species were based on actual costs for the prior
calendar year and budgeted costs for the following calendar year (which overlapped the grant
period) and that the calculation for coldwater species was based on a 12-month period that also
overlapped the grant period. As a result, the costs charged to the grants for stocking public
waters were not based on the actual costs incurred. The working papers indicated, however, that




                                                 20
the auditors determined that the Department’s process did not result in material excessive
charges to the grants for the period reviewed.

Recommendation

        We recommend that the FWS resolve the issue regarding the Department’s cost-per-fish
calculations.

U.S. Fish and Wildlife Service Response

        FWS stated that it was advised by the Department that $1 million is charged annually to
Federal Aid grants based on the cost-per-fish calculations and that, “The auditors may have
concluded that MDC’s practice in 1998 and 1999 did not result in excessive charges, but that
doesn’t mean conclusions are true for current years.” FWS further stated that it noted that the
Department prepares its Financial Status Reports on the cash basis of accounting and that
“Without a better, more detailed understanding of MDC’s accounting practice, we have
difficulty seeing the problems associated with charging actual cash outlays to grants at the time
actual expenses are incurred by fish hatcheries.” FWS concluded that this issue requires further
study and fact-finding due to the significant dollars involved before it can be resolved.

Office of Inspector General Comments

        This issue was initially included in the “Management Issues” section (Appendix 2) of our
draft report. However, based on the concerns expressed by the FWS in its response, we have
included this issue in the body of the report. We consider the recommendation unresolved.

        In accordance with the Department Manual, please provide us with your written
comments by September 12, 2003 regarding the questioned costs and other issues discussed in
this report. If you have any questions regarding this report, please contact Mr. Gary Dail, Federal
Assistance Audit Coordinator, at (703) 487-8011.

        This advisory report is intended solely for the use of grant officials of the U.S. Fish and
Wildlife Service, and is not intended for, and should not be used by, anyone who is not cognizant
of the procedures that were applied and who agreed to the sufficiency of those procedures.

cc: Regional Director, Region 3
      U.S. Fish and Wildlife Service




                                                21
                                                                                        APPENDIX 1
                                                                                          Page 1 of 2

            FINANCIAL SUMMARY OF REVIEW COVERAGE
             MISSOURI DEPARTMENT OF CONSERVATION
                 JULY 1, 1997 THROUGH JUNE 30, 1999

                                                                                   QUESTIONED
                                                                                      COSTS
  GRANT                                GRANT             FEDERAL      AMOUNT        (FEDERAL
AGREEMENT           TITLE              BUDGET             SHARE       CLAIMED         SHARE)  NOTE
              Statewide Wildlife
W-93-D-3      Management               $8,065,322        $4,032,661   $7,341,544      $776,470   1
              Statewide Wildlife
W-93-D-4      Management                6,450,703         2,257,746    4,387,087       744,603   2
              Wildlife Management,
W-13-R-52     Planning, & Research      2,690,416         2,017,812    2,399,433
              Wildlife Management,
W-13-R-53     Planning, & Research      2,266,473         1,699,855    1,982,833
              Fisheries Research
F-1-R-47      Studies                    888,020           666,015      676,760
              Fisheries Research
F-1-R-48      Studies                    841,270           630,952      606,517
              Statewide Public Lake
F-41-D-12     Management                1,454,736         1,091,052    1,525,660
              Statewide Private Lake
F-44-T-11     Management                 459,786           344,840      236,732
              Small Public Fishing
              & Boating
              Impoundment
F-47-D-1      Developments              2,400,000         1,800,000    2,157,802
              Lost Valley Hatchery
F-48-D-2      Development              18,160,890        13,620,668   16,158,470
              Aquatic Resource
F-42-E-12     Education                  615,501           461,623      318,708
              Aquatic Resource
F-42-E-13     Education                  898,790           674,092      481,549
              Motorboat Access
F-49-D-1      O&M                        837,500           628,125      510,544          2,059   3
              Statewide Fisheries
F-50-D-1      Management Program        3,871,713         2,903,785    3,400,260
              Fishing and Boating
F-46-D-2      Access Development        1,050,000          787,500      875,940
              Fishing and Boating
F-46-D-3      Access Development         860,000           645,000      902,570




                                                    22
                                                                                                     APPENDIX 1
                                                                                                       Page 2 of 2

            FINANCIAL SUMMARY OF REVIEW COVERAGE
             MISSOURI DEPARTMENT OF CONSERVATION
                 JULY 1, 1997 THROUGH JUNE 30, 1999
                                                                                          QUESTIONED
                                                                                             COSTS
  GRANT                                     GRANT             FEDERAL       AMOUNT         (FEDERAL
AGREEMENT                TITLE              BUDGET             SHARE        CLAIMED          SHARE)  NOTE
                  Fishing and Boating
 F-46-D-4         Access Development           650,000           487,500       800,316
                  Fishing and Boating
 F-46-D-5         Access Development           267,349           200,512       420,434
                  Fishing and Boating
 F-46-D-6         Access Development           427,550           320,663       418,141
                  Fishing and Boating
 F-46-D-7         Access Development           250,000           187,500       289,827
                  Fishing and Boating
 F-46-D-8         Access Development           208,300           156,225       156,225

 E-1-30           Endangered Species           166,934           104,471       128,176

 E-1-31           Endangered Species            90,319            66,234         48,279

 E-1-32           Endangered Species           162,746            81,373         70,921

 V-1-1            Clean Vessel                  42,667            32,000         42,605

 V-1-2            Clean Vessel                 101,055            38,833         83,462

 V-1-3            Clean Vessel                  54,284            40,712              0
          TOTAL                            $54,232,324        $35,977,749   $46,420,795       $1,523,132


Explanatory Notes
(1) The questioned amount includes reimbursements exceeding the Federal cost-sharing percentage ($734,154),
operation and maintenance costs ineligible for Federal Aid reimbursement ($16,411), and costs related to nuisance
animal control efforts ($25, 905).

(2) The questioned amount includes reimbursements exceeding the Federal cost-sharing percentage ($722,266),
operation and maintenance costs ineligible for Federal Aid reimbursement ($6,897), and costs related to nuisance
animal control efforts ($15,440).

(3) The questioned amount relates to operation and maintenance costs on ineligible lands ($2,059).




                                                         23
MANAGEMENT ISSUES

       The working papers identified the two management issues that the Missouri Department
of Conservation and the U.S. Fish and Wildlife Service need to address. The following
conditions were noted during the other audit agency’s visits to selected sites that were funded
under Federal Aid grants.

        1. Handicap Accessibility. Section 504 of the Rehabilitation Act of 1973 states that no
qualified handicapped person shall, on the basis of handicap, be excluded from participation in,
be denied the benefits of, or otherwise be discriminated against in any program or activity
receiving Federal financial assistance. The working papers indicated that the restrooms at the
Uhlmeyer Boating Access were not handicap accessible due to a 3-inch lip between the sidewalk
and the vault.

        2. Federal Aid Logos. The Federal Aid Manual (522 FW 7.9 and 10.9) requires
grantees to display appropriate symbols at areas and facilities that have been funded by Federal
Aid grants. The working papers indicated that the Department had displayed the symbols at most
of the areas visited, but identified three areas where logos were not posted: Swinging Access
Bridge, Angeline Conservation Area, and Sunklands Conservation Area.

U.S. Fish and Wildlife Service Response

      The FWS stated that the Department has provided information showing that it has
implemented corrective action.




                                               24
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
